Washington, D.C. 20530

October 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Ahmed Ali Muthana v. Antony Blinken, Secretary of State, et al.
S.Ct. No. 21-489
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 16, 2021, and
placed on the docket on October 4, 2021. The government’s response is due on November 3,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time to and
including December 3, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which was
delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.
Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0489
MUTHANA, AHMED ALI
ANTONY BLINKEN, SECRETARY OF STATE, ET
AL.

CHRISTINA A. JUMP
CONSTITUTIONAL LAW CENTER FOR
MUSLIMS IN AMERICA
100 NORTH CENTRAL EXPRESSWAY
SUITE 1010
RICHARDSON, TX 75080
972-914-2507
CJUMP@CLCMA.ORG

